                  COMMONWEALTH OF PUERTO RICO

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS

               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

                 JULY 1, 2000 THROUGH MARCH 31, 2002




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                         _____________________________________
                         Assistant Inspector General for Audit
                         U. S. Department of Labor




                                        Report No: 04-03-010-03-390
                                        Date Issued: March 28, 2003

               HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – Commonwealth of Puerto Rico’s Response




                                                                  ii
                          ACRONYMS


CFR       Code of Federal Regulations

DOL       U.S. Department of Labor

ETA       Employment and Training Administration

FIFO      First-In-First-Out

FSR       Financial Status Report

FY        Fiscal Year

JTPA      Job Training Partnership Act

OIG       Office of the Inspector General

PRHRODC   Puerto Rico Human Resources and Occupational
          Development Council

PY        Program Year

WIA       Workforce Investment Act




                               iii
                              SUMMARY OF RESULTS


We obtained and summarized WIA funds obligated and expended by the Commonwealth
of Puerto Rico as of December 31, 2001 as well as funds obligated as of March 31, 2002.
Amounts reported to ETA on Financial Status Reports (FSRs) were supported by source
accounting records at the Commonwealth. However, amounts reported by two of the
three Local Areas we visited were not supported by source accounting records.

Procedures were established for recording expenditures on the accrual basis of
accounting in accordance with Federal regulations. However, we determined that Local
Areas did not universally observe established procedures.

As of December 31, 2001 the Commonwealth had expended $205.4 million (36.8
percent) of the $558.2 million awarded, leaving $352.8 million (63.2 percent)
unexpended. At this rate of spending, it would take over two and a half years to spend
the remaining funds, during which time the Commonwealth would receive additional
WIA allocations.

The Commonwealth and Local Areas employ First-In-First-Out (FIFO) methodology in
charging expenditures rather than matching Program Year (PY) costs with the
appropriate funding for the period. As a result, there is no means by which to assess a
particular period’s performance due to this dissociation of current period expenditures
with current funding.

The reporting process at the Commonwealth level did not allow an accurate appraisal of
the performance within each funding stream due to inconsistent methodology in
accounting for and reporting obligations. Obligations reported on FSRs include actual
obligations for Statewide Activities and Rapid Response. However, the portion of
obligations reported on the FSRs attributable to Local activities included obligated
amounts for only a portion of the Local Areas in Puerto Rico.

The majority of the Local Areas reported only expenditure information to the
Commonwealth, which was combined with obligations reported by the other Local Areas
and then reported as obligations on FSRs. Reporting obligations in this manner did not
afford the ability to assess performance within each funding stream. Beginning with the
quarter ending March 31, 2002, all Local Areas in Puerto Rico began reporting
unliquidated obligations to the Commonwealth.




                                            2
Commonwealth of Puerto Rico’s Response

The Commonwealth of Puerto Rico provided a written response to our draft report, which
is included in its entirety at Exhibit II. The Commonwealth provided additional
comments through their written response and through discussions with us subsequent to
their written response. Puerto Rico stated that charging expenditures to WIA grants on a
FIFO basis is not prohibited under WIA law. Puerto Rico also stated that for some Local
Areas, the amounts reported as obligations equaled the amounts of reported expenditures
on the FSRs because the Commonwealth does not allow the expenditure of funding until
a legal liability exists for the funding. As a result, according to Commonwealth officials,
the reporting of expenditures takes place simultaneously with and in amounts equal to the
reporting of obligations. Additionally, Puerto Rico believed that their Local Areas
consistently reported obligation and expenditure information to the Commonwealth.

Our procedures were not intended to determine Puerto Rico’s compliance with program
reporting requirements. However, by using the FIFO basis, Puerto Rico does charge
current expenditures to prior period funds until exhausted.

Based on the results of the procedures we performed, the manner in which the
Commonwealth reported obligations reflected the amounts for which a legal liability
existed to the entities that provided services under WIA. We did not indicate that Puerto
Rico was not in compliance with WIA requirements for reporting obligations.

While we did determine that some Local Areas reported obligation information to the
Commonwealth while others reported only accumulated expenditures, our procedures
were not designed to determine how adequate the consistency of reporting among the
Local Areas to the Commonwealth.




                                            3
                  BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. This intends to provide
customer-focused services, assist Americans in accessing the tools needed to manage
their careers through information and services, and assist U.S. companies in finding
skilled workers. The Act superseded JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA State grants were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years
to spend the grant funds. However, funds allocated by a State to a Local Board for any
program year are available for expenditure only during that program year and the
succeeding program year. Funds that are not expended by a Local Board in this two-year
period must be returned to the State.

States are required to report WIA activities on quarterly Financial Status Reports
(FSR’s). Accrued expenditures and obligations are key items reported on the FSRs.
Accrued expenditures are reported when a valid liability has been created through
delivery of goods or services, regardless of when cash payment is made. For example,
salaries earned by employees, but not yet paid, should be recorded as accrued
expenditures. Obligations are reported when certain events occur which will require
payment by the States or Local Boards in the same or a future period. Obligations are
defined in the WIA regulation as follows:

        . . . the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period [20 CFR 660.300] (emphasis added).

However, according to ETA, Office of Grants and Contract Management, states have
been verbally instructed to report obligations for Statewide Activities and Rapid
Response only for those amounts of funding for which a legal obligation exists at the
State level. Likewise, states have been instructed to report obligations for Local Board
activities (Local Administration, Youth, Adult and Dislocated Workers), only for those
amounts of funding for which a legal obligation exists at the Local Board level. ETA had
not clearly specified whether Local Boards’ obligations or States’ pass-through awards
should be included on FSRs.




                                            4
Scope and Methodology

Our agreed-upon procedures encompass WIA funds awarded to the Commonwealth of
Puerto Rico for PY 2000, FY 2001, PY 2001and FY 2002, as well as PY 1998 and PY
1999 JTPA funds transitioned into the WIA program. Procedures were applied to grant
activities reported by the Commonwealth and three Local Areas (Al Sureste, Consorcio
del Noreste and Municipio De San Juan) from July 1, 2000 through December 31, 2001.
For procedure number 7, we obtained information reported by the Commonwealth for the
March 31, 2002 reporting period.

In general, our procedures were designed to summarize the Commonwealth of Puerto
Rico’s WIA financial activity (obligations and expenditures) through December 31, 2001,
to determine if the amounts reported to ETA agreed with the supporting accounting
records, and to measure the extent to which the Commonwealth and Local Areas have
obligated and expended WIA funds.




                                          5
                         PROCEDURES AND FINDINGS


1.   Interview the appropriate State personnel regarding how information is
     accumulated from the Local Boards and about the preparation of the FSR
     269s. Using this information, verify exactly what obligations were reported
     on the December 31, 2001 WIA Quarterly Financial Status Reports.
     Determine if the amounts passed through to the Local Boards are reported as
     obligations on the FSRs. Based on the information obtained, determine if the
     State is reporting obligations as described at 20 CFR 660.300 to include
     subgrants awarded to subrecipients.

     Local Areas report to the Commonwealth using “Information of Accumulated
     Expenditures and the Petition of Funds” reports that are comparable to the FSRs
     used to report obligations to the DOL. The reports are required to be submitted to
     the Commonwealth by the 15th day of each month following the month being
     reported.

     Obligations reported on FSRs were compiled from Local Area monthly reports.
     We found that the Local Areas inconsistently reported data on the monthly
     reports. Some Local Areas reported obligations to the Commonwealth, while
     others reported only accumulated expenditures. These amounts were consolidated
     and reported on Federal FSRs as obligations.

     The majority of the amounts reported as obligations were, in fact, expenditures at
     the Local Area level rather than actual obligations. However, for Statewide
     Activities and Rapid Response, the amounts reported as “obligations” were actual
     obligations at the State level. Therefore, the Commonwealth did not report
     obligations as defined at 20 CFR 660.300 which would include all funds allocated
     to the Local Board.

     Starting in the first quarter of 2002, all Local Areas began reporting unliquidated
     obligations and expenditures. These two amounts were consolidated and reported
     on Federal FSRs as obligations.




                                          6
2.   Determine how the State tracks the various funding periods for both State
     activities and Local Board activities, and if data is accounted for in a manner
     that will allow costs to be matched against the appropriate obligation.

     Based on discussions with representatives of PRHRODC as well as examination
     of financial records at the Commonwealth and Local Area levels, we determined
     that PRHRODC does not match costs with the appropriate fiscal period’s funding.
     Rather, current expenditures are charged against the oldest available funding.

     Expenditure information reported to the Commonwealth by the Local Areas was
     identified by funding period. However, reported expenditures were charged to the
     earliest year that funding remained available, rather than the period in which the
     expenditures accrued. As a result, a program’s cost could not be matched with the
     period for which it was funded.
3.   Determine if the cost information (Outlays on the December 31, 2001 FSRs)
     was reported on the accrual basis of accounting as required at 29 CFR 97
     and the WIA reporting instructions at 20 CFR 667.300 (c) (3).
     As discussed in greater detail at item 8 of this report, expenditures are reported
     monthly by Local Areas to the Commonwealth. These amounts then roll up into
     the Federal FSR as “Outlays”.

     We reviewed the reporting instructions provided by PRHRODC to the Local
     Areas and determined that the amounts reported as “accrued expenditures” are
     required to include costs that have been incurred but for which payment has not
     been made by Local Areas. Additionally, representatives of PRHRODC stated
     that Local Areas were instructed to include in “accrued expenditures” both
     payments for goods and services as well as amounts for goods and services which
     had been received but for which a payment had not been made at the end of a
     month. This manner of reporting is consistent with the accrual basis of accounting
     as required by 29 CFR 97 and the instructions at 20 CFR 667.300.

     PRHRODC officials believed their instructions were being adhered to regarding
     accruals. Local Area representatives at two of the three Local Areas visited
     maintained that reported expenditures included accruals. However, the third,
     Noreste, employs cash-basis accounting for the entire year but makes adjustments
     at year-end to be reflective of accruals.




                                          7
4.   Determine what information is required to be reported by the Local Boards
     to the State, including the content, format, frequency and any written
     instructions issued by the State. Obtain copies of reports submitted by the
     Local Boards and copies of written instructions.

     Our review of PRHRODC’s “Financial Guide - Instructions & Forms” and our
     discussions with PRHRODC officials revealed that the Local Areas are required
     to report total Federal funds available (reported as “Annual Program”), accrued
     expenditures (in accordance with 29 CFR 97 and 20 CFR 667.300), the
     unliquidated portion of obligations and projected future expenditures However,
     as mentioned at item number 1 of this report, there was no consistency in the
     information that was reported to the Commonwealth by the Local Areas.

5.   Obtain or prepare from documents supporting the FSR 269s, a summary of
     the FSRs from the Local Boards and analyze this information to select the
     Local Boards to visit.

     We summarized the obligation and expenditure information included in the
     “Analysis of Accumulated Expenditures” prepared by PRHRODC. Utilizing this
     information, we made a judgmental selection of three Local Area offices in which
     to conduct fieldwork. The Local Areas selected for site visits were Al Sureste,
     Consorcio del Noreste, and Municipio De San Juan.

6.   Compare the information compiled at ETA to the reports prepared by the
     States and explain any differences determined.

     We examined the FSRs reported by PRHRODC to the DOL, and compared them
     to the corresponding data compiled at ETA. The information on the FSRs agreed
     to the information compiled at ETA. Key elements of the FSR data were
     extracted from the reports, including Total Federal Funds Authorized,
     Obligations, Outlays (accrued expenditures), and the Unobligated Balance of
     Federal Funds for each funding stream, for each PY and FY. This extracted data
     was then used to perform the analytical procedures as described at item 7 of this
     report.




                                         8
7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.


     Total Federal Funds Authorized


     The table below shows the total WIA funds awarded by the DOL to the
     Commonwealth of Puerto Rico since inception of the WIA program:



      Funding Beginning of            Expiration of       Total WIA Funds
      Period  Spending Period         Spending Period     Awarded
      PY 1998 JTPA transition         June 30, 2001       $ 6,941,880

      PY 1999 JTPA transition         June 30, 2002        $   74,125,179

      PY 2000 July 1, 2000            June 30, 2003        $ 103,556,317

      FY 2001    October 1, 2000      June 30, 2003        $ 111,940,938

      PY 2001 July 1, 2001            June 30, 2004        $ 127,874,454

      FY 2002    October 1, 2001      June 30, 2004        $ 150,263,645

      Less:      Rescission of PY 2001 funds              ($   16,523,469)

                 Total Awards                              $ 558,178,944


     WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
     grants that are available in the April preceding the start of the PY. However, a
     portion of PY 2000 and PY 2001 funding, denoted as “FY” above, was not
     available until October 1 of each respective PY.




                                          9
7. (Continued)


      WIA Funds Obligated


      Data presented below reflects total WIA funds obligated by the Commonwealth
      as of December 31, 2001.


              Funding               Total Funds       Total WIA Funds            Amount              Percent of
               Period                 Awarded             Obligated            Unobligated            Funding
                                    (in millions)       ( in millions)         (in millions)        Unobligated
    PY 1998                            $ 6.94               $ 6.92                $ 0.02               0.3 %

    PY 1999                             $ 74.1               $ 46.4                $ 27.8             37.5 %

    PY 2000                            $ 103.6              $ 90.9                $ 12.6              12.2 %

    FY 2001                            $ 111.9              $ 46.7                $ 65.3              58.4 %

    PY 2001                            $ 127.9              $ 82.2                $ 45.7              35.7 %

    FY 2002                            $ 150.3              $ 32.5               $ 117.7              78.3 %

    Less: PY 2001 Rescission          ($ 16.5)                   N/A            ($     16.5)            N/A

    Total                              $ 558.2              $   305.6            $    252.6           45.3 %


      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by PRHRODC and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, individual amounts in the above columns do not
      sum to the amount presented as “Total” due to rounding differences.




      Of the total $558.2 million available, $305.6 million (54.7 percent) had been
      reported as obligated. The remaining $252.6 million (45.3 percent) was
      unobligated as of December 31, 2001.




                                               10
7. (Continued)

      WIA Funds Obligated – Continued


      As discussed in further detail at item 1 of this report, all Local Areas in Puerto
      Rico began reporting obligation data to the Commonwealth in the first quarter of
      2002. In response to a request by DOL-OIG, we obtained obligation data that
      includes only total amounts for which a legal liability exists. This information
      was obtained for the quarter ended March 31, 2002.



              Funding               Total Funds       Total WIA Funds            Amount            Percent of
               Period                 Awarded             Obligated            Unobligated          Funding
                                    (in millions)       ( in millions)         (in millions)      Unobligated
    PY 1998                            $ 6.94               $ 6.92                $ 0.02             0.3 %

    PY 1999                             $ 74.1               $ 47.1                $ 27.1               36.6 %

    PY 2000                            $ 103.6              $ 94.2                 $ 9.4                9.1 %

    FY 2001                            $ 111.9              $ 59.6                $ 52.4                46.8 %

    PY 2001                            $ 127.9              $ 92.8                $ 35.1                27.4 %

    FY 2002                            $ 150.3              $ 55.8                $ 94.4                62.8 %

    Less: PY 2001 Rescission          ($ 16.5)                   N/A             ($ 16.5)                 N/A

    Total                              $ 558.2              $   356.4            $    201.8             36.2 %



      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by PRHRODC and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, individual amounts in the above columns do not sum
      to the amount presented as the total due to rounding differences




      There was no marked increase ($50.8 million) in total obligations for the quarter
      ended March 31, 2002. For the prior six quarters ended December 31, 2001,
      reported obligations averaged $50.9 million each quarter.




                                               11
7. (Continued)


      Total Federal Expenditures


      The following summary reflects total WIA expenditures reported by Puerto Rico
      through December 31, 2001. These amounts are recorded in DOL’s general
      ledger.



    Funding Period                  Total Funds            Total            Amount             % of
                                      Awarded          Expenditures       Unexpended         Funding
                                    (in millions)      (in millions)      (in millions)     Unexpended

    PY 1998                            $    6.94          $ 6.92             $   0.02            0.3 %

    PY 1999                            $    74.1          $ 20.7             $   53.4           72.1 %

    PY 2000                            $ 103.6            $ 77.7             $ 25.9             25.0 %

    FY 2001                            $ 111.9            $ 35.3             $ 76.6             68.5 %

    PY 2001                            $ 127.9            $ 58.2             $ 69.7             54.5 %

    FY 2002                            $ 150.3            $    6.7           $ 143.6            95.5 %

    Less: PY 2001 Rescission          ($ 16.5)               N/A            ($ 16.5)              N/A
    Total                              $ 558.2            $ 205.4            $ 352.8            63.2%



      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by PRHRODC and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, individual amounts in the above columns do not sum
      to the amount presented as “Total” due to rounding differences.



      Of the $558.2 million WIA funds awarded to Puerto Rico, the Commonwealth
      spent $205.4 million (36.8 percent), leaving the majority of their funding, $352.8
      million (63.2 percent) unexpended as of December 31, 2001.




                                               12
7. (Continued)

      Expenditure Analysis by Funding Stream


      Unexpended funding by program component as of December 31, 2001 was:


                                           Amount        Amount               Percent of
                                           Awarded     Unexpended              Funding
          Program Component              (in millions) (in millions)         Unexpended


       Local Area Activities:
       Adults                              $    102.0        $ 48.0              47.1 %
       Dislocated Worker                   $    166.7        $ 112.1             67.2 %
       Local Admin                         $     37.2        $  15.7             42.2 %
       Youth                               $     89.4        $ 27.2              30.4 %
       Total Local Area
       Activities                          $    395.3        $    203.0          51.4%

       Commonwealth Activities:
       State-wide Activities               $ 90.1            $ 78.6              87.2 %
       State-wide Rapid Response           $ 89.4            $ 87.7              98.1 %
       Total State Activities              $ 179.4           $ 166.3             92.7 %

       Less: PY 2001 Rescission           ($     16.5)       ($    16.5)          N/A

       Total Funding                       $    558.2        $ 352.8             63.2 %



      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by PRHRODC and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, individual amounts in the above columns do not sum
      to the amount presented as “Total” due to rounding differences.



      As of December 31, 2001, the majority of WIA funds at both the Commonwealth
      and Local Area levels were not spent (92.7 percent and 51.4 percent,
      respectively).




                                               13
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to the
     State. Inquire as to the source of obligation, cost and/or payment
     information reported to the State by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Area personnel, we determined that expenditure
     information, as well as the funding availability and, in some cases, obligation
     information was reported to the Commonwealth using the “Information of
     Accumulated Expenditures and the Petition of Funds” report.

     We obtained copies of these reports at the Commonwealth level as well as the
     Local Area level during our visits to sites. PY and FY data was not reported
     separately on the monthly reports. Instead, the two funding periods were
     combined and reported as “Año Programa” (Program Year) activity. PY and FY
     funding was bundled at the Commonwealth level before being allocated to the
     Local Areas. Expenditures reported to the Commonwealth by the Local Areas
     were charged against respective PY and FY allocations on a First-In-First-Out
     (FIFO) basis. This was the means by which the Commonwealth segregated the
     PY and FY expenditures for reporting purposes on FSRs.

     In conjunction with the monthly reports, we reviewed source accounting records
     at three Local Areas we visited in order to determine if they agreed to the
     information reported to the Commonwealth. Of the three, only one Local Area,
     Sureste, provided financial records which supported the amounts reported to the
     Commonwealth. For both the San Juan and Noreste Local Areas, the source
     accounting records obtained did not support the amounts reported to the
     Commonwealth as of March 31, 2002. Representatives of the latter two Local
     Areas were unable to provide explanations as to why their financial records did
     not support the reported amounts.


9.   Determine how the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow costs to be
     matched against the appropriate obligation or subcontract agreement.

     As mentioned in item number 8 of this report, total funding available for a Local
     Area’s program year is a combination of PY and FY allocations. Therefore,
     expenditures could not be matched with appropriate PY or FY allocations at the
     local level. Also, the Local Areas employed FIFO methodology in matching
     period expenditures with funding sources. This methodology did not allow for
     matching of a particular period’s expenditures with funding allotted to that period.
     As such, expenditures reported by the Local Board are not matched with the
     funding applicable to the period in which they were obligated, rather they are first



                                         14
      matched against prior period remaining funds until these funds have been
      exhausted and then matched against subsequent periods’ funding.

      For instance, any amount of PY 2000 funding that remained after PY 2000 had
      lapsed would be used to satisfy subsequent periods’ expenditures until all of PY
      2000 funding was exhausted. Subsequently, PY 2001 funding would have been
      utilized to satisfy the period’s expenditures. Matching a period’s expenditures
      against prior period funding in this manner dissociates the funding allotted to a
      specific period from the actual cost of that period.

10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year and for which a legal liability exists.

      Officials of two of the three Local Areas we visited maintained that the
      “obligation” of funds coincides with the decision by the Local Area to authorize
      funding for a particular entity/contractor to provide services under WIA. The
      third Local Area, San Juan, obligated funds on a per-participant basis. San Juan
      obligated funds when they contracted with a service provider to provide services
      to a particular individual. Both definitions include only anticipated expenditures
      to meet bona fide needs for which a legal liability exists.

      However, as mentioned at item 9 of this report, there is no appropriate matching
      of funding year and program year cost due to the Commonwealth and Local
      Areas’ use of FIFO methodology.




                                          15
                                                                     EXHIBIT I

                 SAMPLE FINANCIAL STATUS REPORT




Following this page is a WIA financial status report used to report program
activities to DOL.




                                    16
17
                                                                      EXHIBIT II

                     THE COMPLETE TEXT OF
               PUERTO RICO’S REPONSE TO THE DRAFT
                AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Puerto Rico’s response to our
agreed-upon procedures report, issued to them on March 5, 2003.




                                    18
19
20
21
22
23
24
25
